U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

January 29, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Lenin Lugo v. United States of America
No. 19-855

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 6,
and placed on the docket on January 8, 2020. The government's response is due on February 7,
2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including March 9, 2020, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0855
LUGO, LENiN
USA

ROY A. KATRIEL
THE KATRIEL LAW FIRM, PC
2262 CARMEL VALLEY ROAD
SUITE 201
DEL MAR, CA 92014
619-363-3333
RAK@KATRIELLAW.COM
STEPHEN J. STANLEY
ATTORNEY AT LAW
41 E. MADISON STREET
SUITE 1100
TAMPA, FL 33602
813-226-2727
STEPHENJSTANLEY@YAHOO.COM

